APPENDIX

TABLE OF CONTENTS
Page
Appendix A — Summary Order of the Court
of Appeals, dated July 18, 2019 .....................

A-1

Appendix B — Memorandum and Order of
the District Court, dated March 5, 2018........

B-1

Appendix C — Excerpt of Defense Exception
to Instruction on No Ultimate Harm at End
of Charge Conference .....................................

C-1

Appendix D — Excerpt of No Ultimate Harm
Jury Instructions on Securities Fraud...........

D-1

Appendix E — Excerpt of No Ultimate Harm
Jury Instructions on Wire Fraud ...................

E-1

Appendix F — Excerpt of No Ultimate Harm
Jury Instructions on the Defense of
Good Faith ......................................................

F-1

Appendix G — Renewed Defense Exception
to the No Ultimate Harm Instruction ............

G-1

Appendix H — Court’s Response to Jury
Question Regarding the Definition
of Intent...........................................................

H-1

A-1
Appendix A — Summary Order of the
Court of Appeals, dated July 18, 2019
18-819-cr
United States v. Shkreli
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC DAT
ABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 18th day of
July, two thousand nineteen.
Present:
DENNIS JACOBS,
DEBRA ANN LIVINGSTON,
JOSEPH F. BIANCO,
Circuit Judges,

A-2
18-819-cr
————————————
UNITED STATES OF AMERICA,
Appellee,

v.
MARTIN SHKRELI,

Defendant-Appellant,
EVAN GREEBEL,
————————————

Defendant.

For Appellee:
JACQUELYN M. KASULIS (Alixandra E. Smith,
on the brief), for Richard P. Donoghue, United
States Attorney for the Eastern District of New
York, Brooklyn, NY.
For Defendant-Appellant:
MARK M. BAKER (Benjamin Brafman, Marc
Agnifilo, Andrea Zellan, Jacob Kaplan, Teny R.
Geragos, on the brief), Brafman & Associates, P.C.,
New York, NY.
Appeal from a judgment of the United States
District Court for the Eastern District of New York
(Matsumoto, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED,
AND
DECREED that the judgment of the district court is
AFFIRMED.

A-3
Defendant-Appellant Martin Shkreli (“Shkreli”)
appeals from an amended judgment of the United
States District Court for the Eastern District of New
York, dated April 11, 2018, sentencing him to 84
months’ imprisonment and ordering him to pay (1) a
fine of $75,000; (2) restitution of $388,336.49; and (3)
forfeiture in the amount of $7,360,450.00, following a
jury verdict convicting him of two counts of securities
fraud and one count of conspiracy to commit
securities fraud, in violation of 15 U.S.C. § 78j(b) and
18 U.S.C. § 371, respectively. See Amended
Judgment, No. 15-cr-637 (KAM) (E.D.N.Y. Filed
April 17, 2018), ECF No. 583. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
Jury Instruction
Shkreli first argues that the district court
incorrectly instructed the jury either (1) by including
a “no ultimate harm” (“NUH”) instruction as to
securities fraud, or (2) even if a NUH instruction
could properly be included in some form as to
securities fraud, by varying the wording of that NUH
instruction between the securities fraud and wire
fraud counts. He points to his convictions for
securities fraud and acquittals for wire fraud as
evidence that the instructions were incorrect and
confusing to the jury. “We review a jury instruction
challenge de novo, but we will reverse only where the
charge, viewed as a whole, demonstrates prejudicial
error.” United States v. Coppola, 671 F.3d 220, 247
(2d Cir. 2012). “Where . . . a defendant requested a
different jury instruction from the one actually given,
the defendant bears the burden of showing that the
requested instruction accurately represented the law
in every respect and that, viewing as a whole the

A-4
charge actually given, he was prejudiced.” United
States v. Nektalov, 461 F.3d 309, 313-14 (2d Cir.
2006) (internal quotation marks omitted).
At the outset, we see no error generally in the
inclusion of a NUH instruction for a securities fraud
charge. In fact, we have upheld such an instruction
in securities fraud cases on multiple occasions. See,
e.g., United States v. Lange, 834 F.3d 58, 79 (2d Cir.
2016); United States v. Leonard, 529 F.3d 83, 91-92
(2d Cir. 2008). We agree with the government that a
securities fraud charge without the NUH instruction
would actually have constituted a windfall for
Shkreli, whose defense was “exactly the kind of
improper argument that the NUH instruction was
designed to address: that despite his many
misrepresentations and omissions to the MSMB
Capital and MSMB Healthcare investors, he did not
have the requisite intent to defraud those investors
because he believed that the investors would
ultimately make money from their investments.”
Appellee’s Brief 40; see also United States v.
Ferguson, 676 F.3d 260, 280 (2d Cir. 2011)
(upholding NUH instruction because it “ensured that
jurors would not acquit if they found that the
defendants knew the [transaction] was a sham but
thought it beneficial for the stock price in the long
run . . . [given that] the immediate harm in such a
scenario is the denial of an investor’s right to control
her assets by depriving her of the information
necessary to make discretionary economic decisions”
(internal quotation marks and brackets omitted)).
We also disagree with Shkreli that it was error for
the terms of the NUH instructions to vary between
the securities fraud and wire fraud counts. The two
crimes have different elements-there is no basis for

A-5
inclusion of language requiring the jury find that
Shkreli acted “for the purpose of causing some loss to
another” in order to convict him of securities fraud
simply because such a finding is required to convict
him of wire fraud. And given these differing
elements, Shkreli’s repeated invocations of United
States v. Rossomando, 144 F.3d 197 (2d Cir. 1998),
and United States v. Berkovich, 168 F.3d 64 (2d Cir.
1999) -- cases dealing exclusively with wire fraud -are unavailing. The instruction given here correctly
stated the law. As such, we disagree with Shkreli
that exclusion of additional language describing an
element not required for the charged crime
constituted a prejudicial error.
Forfeiture
Next, Shkreli argues that the district court erred
when it ordered forfeiture in the amount of
$6,400,450, representing the total amount invested
by investors in his hedge funds (Counts Three and
Six). 1 He argues that the award of forfeiture was
inappropriate for three reasons: (1) not all investors
in the hedge funds testified, and thus the
government did not prove that the funds associated
with the non-testifying investors were acquired by
fraud; (2) the amount should be reduced to account
for losses he incurred by making trades for the funds;
and (3) the large returns seen by investors in the
funds should cause his forfeiture to be reduced to
zero.

Shkreli does not appeal the $960,000 in forfeiture ordered due
to his conviction for conspiracy to commit securities fraud
(Count Eight). See Def.-App. Brief 48 at n.18.
1

A-6
“When a forfeiture award is challenged on appeal,
this Court reviews the district court’s legal
conclusions de novo and its factual findings for clear
error.” United States v. Treacy, 639 F.3d 32, 47 (2d
Cir. 2011). The government sought forfeiture under
18 U.S.C. § 981(a)(l)(C), which renders subject to
forfeiture “[a]ny property, real or personal, which
constitutes or is derived from proceeds traceable to”
a number of offenses, including securities fraud. “In
cases involving lawful goods or lawful services that
are sold or provided in an illegal manner, the term
‘proceeds’ means the amount of money acquired
through the illegal transactions resulting in the
forfeiture, less the direct costs incurred in providing
the goods or services.” Id. § 981(a)(2)(B); see also
United States v. Contorinis, 692 F.3d 136, 145 n.3 (2d
Cir. 2012) (observing that cases involving the sale of
securities falls under “lawful goods or lawful services
that are sold or provided in an illegal manner,” as
the “[t]erm unlawful activities in section 981(a)(2)(A)
was meant to cover inherently unlawful activities
such as robbery that are not captured by the words
illegal goods and illegal services” (internal quotation
marks omitted)). Defendants have the burden of
establishing “direct costs,” which “shall not include
any part of the overhead expenses of the entity
providing the goods or services, or any part of the
income taxes paid by the entity.” 18 U.S.C.
§ 981(a)(2)(B). “Criminal forfeiture focuses on the
disgorgement by a defendant of his ill-gotten gains.”
Contorinis, 692 F.3d at 146 (internal quotation
marks omitted); United States v. Torres, 703 F.3d
194, 203 (2d Cir. 2012) (“[F]orfeiture is gain based.”
(internal quotation marks omitted)).

A-7
First, we disagree with Shkreli that the lack of
testimony by every investor in his hedge funds
requires reduction of the forfeiture amount. We
rejected a similar argument in United States v.
Kalish, 626 F.3d 165, 168 (2d Cir. 2010), where we
declined to decrease the amount of forfeiture
imposed based on the defendant’s argument that
“only a few customers testified that false promises
had been made to them.” As in Kalish, “false
promises were routinely made” to Shkreli’s investors.
Id.; see also Appellee’s Brief 56 (describing “the
sheer-breadth
and
depth
of
the
material
misrepresentations and omissions made by Shkreli
to investors in the course of the two frauds to induce
investment, which touched on every aspect of the
operation of the MSMB Funds”). Moreover, we agree
with the government that the continuing
misrepresentations sent to all investors in the funds
(in the form of false performance reports sent out on
a regular basis, for example) clearly link Shkreli’s
ability to retain the invested money to his fraud. As
such, we discern no clear error in the district court’s
factual finding that the money associated with all
the investors was traceable to Shkreli’s fraud
irrespective whether or not the investors testified.
Next, we disagree with Shkreli that his forfeiture
award should be decreased based on the trading
activities of his hedge funds, which he argues should
be deemed “direct costs.” As noted above, it was
Shkreli’s burden to prove his direct costs. See 18
U.S.C. § 981(a)(2)(B). We, like the district court,
conclude that Shkreli failed to meet such a burden.
See Special Appendix (“SPA”) 123 (noting that
Shkreli “provides only bare citations to various
government exhibits, with minimal analysis”). For
example, although Shkreli argues that for one hedge

A-8
fund “[his] net gain, after the investment of the
received funds are factored, is a significantly lesser
amount” than the full amount originally invested in
the fund, he does not explain what that net gain
might be or how we should calculate it. Def.-App.
Brief 66. Similarly, while for the other hedge fund
Shkreli argues that the majority of the money
originally invested was used to buy an interest in his
pharmaceutical start-up Retrophin, he does not
grapple with the finding that a large portion of that
amount was actually diverted to pay his personal
debts. A “cursory argument” is not enough. United
States v. Mandell, 752 F.3d 544, 554 (2d Cir. 2014).
As in Mandell, we conclude that Shkreli has failed to
meet his burden as to trading losses.
Lastly, Shkreli argues that we should adopt the
reasoning of United States v. Hollnagel, 2013 WL
5348317 (N.D. Ill. Sept. 24, 2013) -- a district court
case from outside our circuit -- in which the court
concluded that the robust returns received by
investors should reduce the forfeiture amount
required of the defendant to zero. See id. at *4.
However, as noted above, we have held that
“forfeiture is gain based,” not based on the losses ( or
gains) to victims. Torres, 703 F.3d at 203 (internal
quotation marks omitted). And even if Shkreli argues
that he, like the defendants in Hollnagel, “incurred
the cost of paying [his] investors,” 2013 WL 5348317,
at *5, he makes no suggestion that he has not
profited from the frauds. To the contrary, the district
court found that he misappropriated large sums of
the money invested in his funds for his own use. As
such, we see no clear error in the district court’s
conclusion that, at the very least, the gains to Shkreli
include the money he caused his investors to invest
via fraud. Cf Appendix 376 (“[T]he proceeds [Shkreli]

A-9
obtained as a result of his misrepresentations
enabled him to control millions of dollars that were
used to fund and enable the success of Retrophin,
pay his personal debts and expenses, and perpetuate
additional frauds.”)
We
have
considered
Shkreli’s
remaining
arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the
district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

B-1
Appendix B — Memorandum and Order of
the District Court, dated March 5, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
MEMORANDUM AND ORDER
15-cr-637(KAM)
————————————
UNITED STATES OF AMERICA
- against MARTIN SHKRELI,
————————————

Defendant.

MATSUMOTO, United States District Judge:
Before the court is the government’s post-trial
motion for forfeiture in this criminal securities fraud
case, pursuant to Federal Rule of Criminal
Procedure 32.2, Title 18 United States Code Section
981(a)(1)(C), Title 28 United States Code Section
2461(c), and Title 21 United States Code Section
853(p) (Government’s Motion (“Gov. Mot.”), ECF No.
464; Defendant’s Response (“Def. Resp.”), ECF No.
515; Government’s Reply (“Gov. Reply”), ECF No.
523; Defendant’s Sur-Reply (“Def. S.R.”), ECF No.
523.) The court heard argument on the motion on
February 23, 2018. (February 23, 2018 Transcript
(“Tr.”).) This order presumes familiarity with this
court’s prior orders in this case, in particular the
February 26, 2018 Memorandum and Order denying
Mr. Shkreli’s Motion for Judgment of Acquittal
and discussing the loss amount in this case.

B-2
(Memorandum and Order (“Rule 29 Order”), ECF No.
535.)
I.

Standard of Review
A. Criminal Forfeiture

Pursuant to Title 18, United States Code Section
981(a)(1)(C), a court may order the forfeiture of “[a]
ny property . . . which constitutes or is derived from
proceeds” of criminal securities fraud, through what
the Second Circuit has described as a “roundabout
statutory mechanism”:
18 U.S.C. Section 981(a)(1)(C) allows a court to
order forfeiture for ‘any offense constituting
‘specified unlawful activity’ as defined in 18
U.S.C.
§ 1956(c)(7).’
Section
1956(c)(7)(A)
incorporates ‘any act or activity constituting an
offense listed in 18 U.S.C. § 1961(1).’ And
§ 1961(1)(D) lists ‘any offense involving . . . fraud
in the sale of securities.’ While § 981(a)(1)(C) is a
civil forfeiture provision, it has been integrated
into criminal proceedings via 28 U.S.C.
§ 2461(c).
United States v. Contorinis, 692 F.3d 136, 145 n.2 (2d
Cir. 2012) (alterations in the original). “In cases
involving illegal goods, illegal services, unlawful
activities, and telemarketing and health care fraud
schemes,” the term “proceeds” is defined to include
“property of any kind obtained directly or indirectly,
as the result of the commission of the offense giving
rise to forfeiture.” 18 U.S.C. § 981(a)(2)(A). For cases
involving “lawful goods or lawful services that are
sold or provided in an illegal manner . . . proceeds
means the amount of money acquired through the
illegal transactions resulting in the forfeiture, less

B-3
the direct costs incurred in providing the goods and
services.” 18 U.S.C. § 981(a)(2)(B). Such “direct costs
“shall not include any part of the overhead expenses
of the entity . . . or any part of the income taxes paid
by the entity.” Id.
The government has the burden of establishing
that forfeiture is warranted by a preponderance of
the evidence. United States v. Finazzo, 682 F. App’x
6, 14 (2d Cir. 2017) (citing United States v. Daudergas,
837 F.3d 212, 231 (2d Cir. 2016)); United States v.
Capoccia, 503 F.3d 103, 116 (2d Cir. 2007) (citing
United States v. Fruchter, 411 F.3d 377, 383 (2d Cir.
2005)). In cases involving “lawful services . . .
provided in an illegal manner,” the defendant has
the burden of proving “direct costs” which may be
deducted from the amount to be forfeited. 18 U.S.C.
§ 981(a)(2)(B).
B. Substitute Assets
The procedures in Title 21 United States Code
Section 853 apply to criminal forfeitures. 28 U.S.C.
2461(c); United States v. Capoccia, 402 F. App’x 639,
641 (2d Cir. 2010) (citing, inter alia, United States v.
Kalish, 626 F.3d 165 (2d Cir. 2010)). Pursuant to
Section 853(p), if, because of acts or omissions of the
defendant, property subject to forfeiture “cannot be
located,” “has been transferred,” “has been placed
beyond the jurisdiction of the court,” “has been
substantially diminished in value,” or “has been
commingled with other property which cannot be
divided without difficulty,” “the court shall order the
forfeiture of any other property of the defendant, up
to the value of [the forfeitable] property.” 21 U.S.C.
§ 853(p).

B-4
II. Discussion
A. Counts Three and Six
The government requests forfeiture of $2,998,000
on Count Three and $3,402,450 on Count Six. These
amounts represent the total investments by
defrauded investors into Mr. Shkreli’s MSMB
Capital and MSMB Healthcare hedge funds. (Gov.
Mot. at 5.) Mr. Shkreli argues that no forfeiture is
appropriate on either count. 1 In the alternative, Mr.
Shkreli argues that any forfeiture amount for Counts
Three and Six “should [ ] be significantly reduced by
the amount of [investors’] money used to provide
goods and services – i.e. purchase securities.” (Def.
S.R. at 5.) In support of this argument, he provides
only bare citations to various government exhibits,
with minimal analysis.
The court agrees with the parties 2 that the
applicable definition of “proceeds” for this case is set
In opposing the government’s motion for forfeiture, Mr.
Shkreli also argues that (1) investors in his MSMB hedge funds
did not rely on his representations in choosing to invest in
MSMB Capital and MSMB Healthcare, and (2) the forfeiture
amount should be zero for both Counts Three and Six because
“each of the[ ] investors received a robust return for their
investments.” (See Def. Resp. at 5.) The court has considered,
and rejected, these arguments in a prior order. (Rule 29 Order.)
1

In their opening briefs, the parties agreed that the court
should apply Section 981(a)(2)(B). (Gov. Mot. at 3 ( “as the
Second Circuit has held in the context of insider trading
securities fraud cases, the applicable definition of proceeds is
set forth in 18 U.S.C. § 981(a)(2)(B)”); Def. Resp. at 2.) Although
the government acknowledged that the court should apply
Section 981(a)(2)(B), the government noted in its reply brief and
during oral argument that Mr. Shkreli’s conduct was “more like
the fraud and inducement cases where the Second Circuit has
held no costs or expenses should be deducted.” (Tr. 42:10-11

2

B-5
forth in Title 18 United States Code Section
981(a)(2)(B), which governs forfeiture for “lawful
goods or lawful services . . . sold or provided in an
illegal manner.” 18 U.S.C. § 981(a)(2)(B). For such
transactions, “the term ‘proceeds’ means the amount
of money acquired through the illegal transactions
resulting in the forfeiture, less the direct costs
incurred in providing the goods or services.” Id. The
Second Circuit has explained that Section
981(a)(2)(B) “supplies the definition of ‘proceeds’ in
cases involving fraud in the purchase or sale of
securities,” whereas Section 981(a)(2)(A) is reserved
for cases involving “inherently unlawful” activity,
such as “the sale of foodstamps[ ] or a robbery.”
United States v. Contorinis, 692 F.3d 136, 145 n.3 (2d
Cir. 2012).
Although the court will apply the definition of
“proceeds” set forth in Section 981(a)(2)(B), the court
concludes that Mr. Shkreli is not entitled to deduct
“direct costs” from the forfeiture amounts in Counts
Three and Six, for two related reasons: First, he has
not borne his burden of proving direct costs, and,
second, the few purported direct costs he specifically
references in his papers would not be deductible.
With regard to Count Three, Mr. Shkreli argues
that MSMB Capital’s trading losses, brokerage fees
and trading commissions constitute “direct costs”
under Title 18 United States Code Section
(Section 981(a)(2)(B) is the “definition of proceeds to be applied
here”); id. at 42:12-15 (contrasting this case with insider
trading cases); Gov. Reply at 6 n.5; (“it is far from clear that
[Section 981(a)(2)(B)’s] more limited definition [,] as opposed to
the gross definition of ‘proceeds’ set forth in Section 981(a)(2)(A)
should apply to . . . fraud cases[ ] such as this”).)

B-6
981(a)(2)(B), such that they reduce the forfeitable
amount to, at most, $505,414. (Def. S.R. at 5.) As
support, he cites MSMB Capital’s bank records,
without any detailed analysis. (Id.) At oral
argument, defense counsel also referenced MSMB
Capital’s loss resulting from conduct in the OREX
trade (see Rule 29 Order at 15-16 (testimony of
Steven Stitch, describing the OREX trade)), as an
example of the “direct costs” Mr. Shkreli incurred at
MSMB Capital. (Tr. 45:16-23.)
Not only does the defense fail to provide any
detailed analysis of the various government exhibits
Mr. Shkreli now proffers in support of his argument
on direct costs, but the defense also ignores the jury’s
verdict in this case. By the time Mr. Shkreli lost
MSMB Capital’s investment capital in the OREX
trade, he had repeatedly lied to his investors
regarding the size, nature, and performance of his
fund. (See, e.g., Rule 29 Order at 58-62 (describing
investor testimony).) Investors believed, based on
Mr. Shkreli’s representations, that MSMB Capital
had tens of millions of dollars in assets, with a
diversified investing strategy and third-party
oversight. (See id.) Although MSMB Capital
investors recognized the risks of investing in a hedge
fund, they believed, also based on Mr. Shkreli’s
representations, that the fund was diversified in
long/short investments and had a record of positive
performance. (See, e.g., id. at 8 (testimony of Sarah
Hassan); 40-41 (testimony of John Neill).)
With regard to the OREX trade in particular, Mr.
Shkreli falsely claimed to his execution broker,
Merrill Lynch, that MSMB Capital’s prime broker,
Interactive Brokers, had been able to obtain the
necessary “locate” on OREX shares to enable the

B-7
short trade. (Id. at 15 (testimony of Steven Stitch
explaining the purpose of a “locate”).) In part as a
result of Mr. Shkreli’s failure to follow the proper
procedures in executing the trade, MSMB Capital
suffered a multiple-million dollar loss, in excess of its
assets. Far from being a “direct cost” of “lawful
services” within the meaning of Section 981(a)(2)(B),
the costs related to the OREX trade are the result of
the fraudulent conduct for which Mr. Shkreli was
convicted: he deceived investors into believing that
they were invested in a sophisticated and diversified
hedge fund, but chose instead to gamble the money
entrusted to him on a series of improperly-conducted
trades in a single stock.
To the extent Mr. Shkreli’s other investments on
behalf of MSMB Capital could be characterized as
“lawful services” within the meaning of Section
981(a)(2)(B), he has not provided any detailed
analysis or breakdown of MSMB Capital’s “direct
costs” related to such investments, nor explained
how any such costs of MSMB Capital should be
deducted from his own forfeiture obligations. See
Contorinis, 692 F.3d at 145 n.3 (Noting that because
the defendant’s employer, and not the defendant
himself, bore “all direct costs” in an insider trading
case, “any money that [the defendant] can fairly be
considered as having ‘acquired’ as a result of his
[illegal] activities may be subject to forfeiture under
§ 981.”) Therefore, he has failed to carry his burden.
See United States v. Mandell, 752 F.3d 544, 554 (2d
Cir. 2014) (holding that a defendant who “failed to
present any evidence and no more than cursory
argument” regarding direct costs “failed to meet his
burden”)).

B-8
As to Count Six, Mr. Shkreli argues that MSMB
Healthcare invested $2,535,000 million into
Retrophin, such that “the forfeiture amount would
be, at most, $867,450.” (Id.) As with Mr. Shkreli’s
arguments on Count Three, he has failed to provide
any analysis or detailed explanation of why the court
should deduct $2,535,000 million as “direct costs”
from the total forfeiture amount. Indeed, as the court
has already explained, the trial evidence showed that
(1) Mr. Shkreli improperly used MSMB Healthcare
to funnel money to Retrophin, notwithstanding his
representations that MSMB Healthcare was a
diversified fund; and (2) Mr. Shkreli improperly used
approximately $1.1 million of the money MSMB
Healthcare invested into Retrophin for his own
personal and unrelated professional obligations.
(Rule 29 Order, ECF No. 535 at 64-67; 86-88.) Even
if Mr. Shkreli were to have made a more detailed
submission regarding direct costs of MSMB
Healthcare for Count Six, he would not be able to
establish that his acts of improperly funneling
investor money into Retrophin resulted in “direct
costs” of providing a “lawful service[ ].” Furthermore,
as with Count Three, Mr. Shkreli has failed to
provide any analysis to establish that any other
trading activity in MSMB Healthcare resulted in
legitimate “direct costs” to him. See Mandell, 752
F.3d at 554; Contorinis, 692 F.3d at 145 n.3.
B. Count Eight
With regard to Count Eight, the evidence at trial
showed that Mr. Shkreli conspired with Retrophin’s
attorney, Evan Greebel, and others, to control the
price and trading of shares in Retrophin. (Rule 29
Order at 67-78.) In order to achieve this control, Mr.
Shkreli and Mr. Greebel directed the distribution of

B-9
the Fearnow shares to various Retrophin insiders.
(Id. at 68-71 (describing the “Fearnow shares”).) In
addition to using his control over some of the
Fearnow shares to attempt to increase the trading
price of Retrophin shares in the market, Mr. Shkreli
used the shares to mollify frustrated investors in his
MSMB Capital and MSMB Healthcare hedge funds.
(Id. at 71-75.)
The government now seeks forfeiture of $960,000,
which it argues is the amount of the benefit Mr.
Shkreli received, both indirectly and directly, from
having his co-conspirators transfer Fearnow shares
held in their names to two MSMB investors (Dr.
Lindsay Rosenwald and Richard Kocher), to a
Retrophin investor (Thomas Koestler), and to Mr.
Shkreli himself. (Gov. Mot. at 7.) Mr. Shkreli argues
that the government’s request is improper, because it
has “nothing to do with the alleged conduct in Count
Eight” and is instead related to the alleged conduct
in Count Seven, of which the jury acquitted Mr.
Shkreli. (Def. Resp. at 5-6.) Mr. Shkreli also argues
that Mr. Shkreli’s co-conspirators transferred their
Fearnow shares to the dissatisfied MSMB investors
for their own legitimate reasons. (Id. at 6 (“these
three Fearnow recipients had their own financial
interests in mind when they helped settle [the
MSMB] claims as they stood to gain handsomely if
Retrophin succeeded . . . and was not smothered in
its infancy with lawsuits by MSMB investors.”))
The court concludes that the Fearnow shares used
to satisfy the demands of Dr. Rosenwald, Mr. Kocher,
Mr. Koestler and Mr. Shkreli constituted property
which “derived from” the transactions at issue in

B-10
Count Eight. See 18 U.S.C. §§ 981(a)(1)(C), (a)(2)(B). 3
The court has previously described in detail how Mr.
Shkreli and Mr. Greebel obtained the Fearnow
shares and distributed them to Retrophin and
MSMB insiders. (Rule 29 Order at 68-71.) As this
court has also explained, Mr. Shkreli and Mr.
Greebel extensively discussed how to use the
Fearnow shares to compensate MSMB investors, and
took action to try and prevent another “Pierotti
problem” – a Fearnow share recipient refusing to
accede to Mr. Shkreli’s directives regarding trading
or not trading their Fearnow shares. (Id. at 74-75.)
Indeed, Mr. Shkreli specifically wrote in an email to
Mr. Greebel that he wanted to make the transfers
from the Fearnow shareholders “anonymous” if
possible, so that the Fearnow shareholders “don’t
know exactly where [their shares] are going.” (Id.
(quoting GX 271.)) Mr. Shkreli wrote to Mr. Greebel
that after the Fearnow shares held in “escrow” were
used to satisfy dissatisfied MSMB investors, “the
rest” should be transferred to him. (Id. (discussing
GX 268); see id. at 50 n.8 (describing the shares held
in “escrow”).) The government also introduced
documentary evidence demonstrating that Mr.
Shkreli and Mr. Greebel specifically directed the
transfer of Retrophin shares to Mr. Koestler. In
February 2013, Mr. Greebel asked Mr. Shkreli
whether to use “Fearnow stock or new restricted
grant from company” to provide Mr. Koestler with
the shares he should have received for investing in
For substantially the reasons stated in its discussion of
Counts Three and Six, the court concludes that the definition of
“proceeds” for Count Eight is determined by the application of
Title 18 United States Code 981(a)(2)(B). See Contorinis, 692
F.3d 145 n.3.

3

B-11
Retrophin in 2012. (GX 370.) Mr. Shkreli responded
“combo would be great.” (Id.)
The trial evidence, therefore, supports the
government’s position that Mr. Shkreli and Mr.
Greebel – not the Fearnow shareholders themselves –
made the decision to transfer the shares to Dr.
Rosenwald, Thomas Koestler, Richard Kocher, and
Mr. Shkreli. The evidence also establishes that Mr.
Shkreli used these transfers to stave off lawsuits or
government investigations which may have targeted
him personally, or which might have resulted in
government
investigations
of
the
various
improprieties in the MSMB hedge funds. (See, e.g.,
id. at 22-23 (describing testimony of Dr. Rosenwald,
in which he stated that prior to settlement he had
involved his legal counsel).) Mr. Shkreli thereby
received a personal benefit from the distribution of
these shares.
II. Substitute Assets
The government asks the court to approve the
seizure of substitute assets, pursuant to Federal
Rule of Criminal Procedure 32.2(e) and Title 21
United States Code Section 853(p). (Gov. Mot. at 9.)
The government provides the sworn declaration of
FBI Special Agent Sean Sweeney to support its
position that Mr. Shkreli has “transferred,”
“substantially diminished,” or “commingled” the
forfeitable assets, and thus mandating that “the
court shall order the forfeiture of any other property
of the defendant, up to the value of the [forfeitable
property],” here $7,360,450.00. (See Declaration of
Special Agent Sean Sweeney, ECF No. 464-2 at ¶¶ 89 (stating that Special Agent Sweeney and other
agents “have made a diligent effort to locate

B-12
traceable proceeds to the offenses subject to
forfeiture” but that such assets “appear to have been
dissipated or otherwise disposed of.”) The evidence at
trial shows that direct proceeds of Mr. Shkreli’s
criminal conduct were either dissipated (i.e. the
OREX trade) or transferred to Retrophin or the
MSMB investors, or Mr. Shkreli.
Mr. Shkreli has opposed the forfeiture of
substitute assets, in part because he owes significant
amounts of money to New York State, the Internal
Revenue Service, his accountants, and his
attorneys. 4 (Def. Mot. at 7.) Mr. Shkreli has provided
no authority, however, for the proposition that
otherwise forfeitable proceeds should not be subject
to forfeiture because the defendant owes money to
other potential creditors.

Mr. Shkreli also noted that one of the substitute assets listed
in the government’s initial proposed preliminary order of
forfeiture had already been seized by New York State. (Def.
Mot. at 7.) The government has addressed this issue in its
revised proposed preliminary order of forfeiture. (See Revised
Proposed Preliminary Order of Forfeiture, ECF No. 539-1.) To
address Mr. Shkreli’s concerns about a premature “fire sale” of
his stake in Vyera Pharmaceuticals (formerly known as Turing
Pharmaceuticals), the government has also indicated that it
does not oppose a stay of “that portion of a [preliminary order of
forfeiture] authorizing the seizure of substitute assets . . . until
completion of the appeal that [Mr.] Shkreli intends to file,” on
the condition that the substitute assets be preserved pending
any final decision on appeal. (Gov. Reply at 10.)
4

B-13
Conclusion
For the foregoing reasons, the court concludes that
the government has established that forfeiture of
substitute assets, up to $7,360,450.00, is warranted
in this case. As the government has requested, the
court will so-order the government’s proposed
preliminary order of forfeiture, which includes
provisions ensuring the preservation of assets and
appropriately staying seizure of assets pending
appeal. (See Revised Proposed Preliminary Order of
Forfeiture at ¶¶ 10-11.)
SO ORDERED.
Dated: March 5, 2018
Brooklyn, New York
/s/
KIYO A. MATSUMOTO
United States District Judge
Eastern District of New York

C-1
Appendix C — Excerpt of Defense Exception
to Instruction on No Ultimate Harm at End
of Charge Conference
Proceedings
[5145]
*

*

*

MR. AGNIFILO: One thing just to round out one
issue. On the no ultimate harm charge -THE COURT: Right.
MR. AGNIFILO: -- I know it’s a recognized charge
in the Second Circuit, and Your Honor’s absolutely
following Second Circuit law in giving it, and I don’t
have any good faith argument to the contrary. I don’t
know how this issue would ever be raised in future
matters, but it is our position that -- for what it’s
worth -- that the Second Circuit is wrong on the no
ultimate harm charge; that
[5146]
there were concerns that were raised in the earlier
cases like Rossomando and whatnot, that the no
ultimate harm charge arose to establish good faith
charge is our position.
And that I think we’re also mindful of the fact that
in my research, no other circuit gives the charge. So
there’s no doubt Your Honor is following establish -well established, repeatedly establish Second Circuit
law. It’s our position, though, that with all respect to
the Second Circuit that they’re not right on this
issue.

C-2
I don’t know what value there is in putting that on
the record, but now it’s on the record.
THE COURT: Well, maybe somebody can seek the
juror instruction before the Supreme Court and get
some clarification.
MR. AGNIFILO: Thank you, Judge.
THE COURT: But I think we are going to follow -MR. AGNIFILO: Yes.
THE COURT: -- the Second Circuit at this point.
MR. AGNIFILO: Yes.
THE COURT: And the Supreme Court.
MR. AGNIFILO: Thank you, Judge.
*

*

*

D-1
Appendix D — Excerpt of No Ultimate Harm
Jury Instructions on Securities Fraud
Jury Instructions
July 28, 2017 Court Ex. 5
*

*

*

In considering whether or not a defendant acted in
good faith, you are instructed that a belief by the
defendant, if such belief existed, that ultimately
everything would work out so that no investors
would lose any money does not require a finding by
you that the defendant acted in good faith. No
amount of honest belief on the part of a defendant
that the scheme ultimately will make a profit for the
investors will excuse fraudulent actions or false
representations by him.
As a practical matter, then, to prove the charge
against a defendant, the government must establish
beyond a reasonable doubt that the defendant knew
that his conduct as a participant in the scheme was
calculated to deceive and, nonetheless, he associated
himself with the alleged fraudulent scheme.
*

*

*

E-1
Appendix E — Excerpt of No Ultimate Harm
Jury Instructions on Wire Fraud
Jury Instructions
July 28, 2017 Court Ex. 5
*

*

*

There is another consideration to bear in mind in
deciding whether or not the defendant acted in good
faith. You are instructed that if the defendant
conspired to commit wire fraud, then a belief by the
defendant, if such a belief existed, that ultimately
everything would work out so that no one would lose
any money does not require you to find that the
defendant acted in good faith. No amount of honest
belief on the part of the defendant that the scheme
would, for example, ultimately make a profit for
investors, will excuse fraudulent actions or false
representations caused by him to obtain money or
property. I reiterate, however, that an “intent to
defraud” for the purposes of the wire fraud statute
means to act knowingly and with specific intent to
deceive for the purpose of causing financial loss or
property loss to another. As a practical matter, then,
you may find intent to defraud if the defendant knew
that his conduct as a participant in the scheme was
calculated to deceive and, nonetheless, he associated
himself with the alleged fraudulent scheme for the
purpose of causing loss to another.
*

*

*

F-1
Appendix F — Excerpt of No Ultimate Harm
Jury Instructions on the Defense of Good Faith
Jury Instructions
July 28, 2017 Court Ex. 5
*
III.
1.

*

*

Defenses

Good Faith

Good faith is a complete defense to the charges in
this case. If the defendant believed in good faith that
he was acting properly, even if he was mistaken in
that belief, and even if others were injured by his
conduct, there would be no crime.
If you believe that Mr. Shkreli believed in the
truth of the representations that he made, then it
does not make any difference if the representations
were untrue. The burden of establishing lack of good
faith and criminal intent rests on the government. A
defendant is under no burden lo prove his good faith;
rather, the government must prove bad faith or
knowledge of falsity beyond a reasonable doubt.
As a reminder, I instruct you that when
considering the defense of good faith, you consider it
in conjunction with my instructions on pages 41 and
68, regarding the defendant’s belief, if such belief
existed, that ultimately everything would work out
so that no one would lose money.
*

*

*

G-1
Appendix G — Renewed Defense Exception
to the No Ultimate Harm Instruction
Sidebar Conference
[5605]
(The following occurred at sidebar.)
MR. BRAFMAN: Your Honor -MS. KASULIS: So -- go ahead.
MR. BRAFMAN: Your Honor, we obviously reserve
the objections we made and if we leave in that with
respect to no ultimate harm but other than that, we
have no objections to the Court’s Charge, other than
what was previously named.
*

*

*

H-1
Appendix H — Court’s Response to
Jury Question Regarding the Definition
of Intent
[5634]
*

*

*

THE COURT: All jurors are present. Please have a
seat, everybody.
The jurors sent out a note this afternoon, which we
have designated as Court Exhibit 8. My response will
be designated as Court Exhibit BA. I will read you
my response, and I will also give you a copy for you
to take back to the jury room.
The question was as follows: Do assets under
management refer to a particular fund being
discussed or to all assets managed by the portfolio
manager slash general partner? The second question
was: Can we have a legal definition of assets under
management? And the third question was: Can you
expand or elaborate your definition of fraudulent
intent?
In response first to questions one and two, I advise
you as follows: There is no legal definition of assets
under management, or AUM, in the record. What
Mr. Shkreli intended when he used the term assets
under management, or AUM, when he conveyed
information regarding the MSMB Capital or MSMB
Healthcare funds to potential investors and
investors, the SEC,
[5635]
his employees, and alleged co-conspirators is an issue
in dispute for you, the jury, to resolve.

H-2
Answer to question three. Fraudulent intent is
defined separately for the counts relating to
securities fraud and securities fraud conspiracy -that is, counts one, three, four, six, and eight -- and
conspiracy to commit wire fraud as charged in counts
two, five, and seven. Please refer to the elements and
definitions in the jury instructions regarding those
counts at pages 33 through 42 for counts related to
securities fraud and securities fraud conspiracy, and
pages 62 through 68 for counts related to conspiracy
to commit wire fraud. Please also refer to pages 79
through 81 for instructions relating to the defenses of
good faith and reliance on counsel.
*

*

*

